Case l:19-cv-00094-AMn-LB Document 1 Filed 01/07/19 Page|^E^j^^E#: 1
United States District Court
\ DISTRICT COURT S.O.N.Y.
Eastern District of New York
i

★ JAN 07 2019 *

Nehemiah Rolle, Jr.

Federal Comptyffi |cm ANDjOESCE
Demanding Tnalby Jury
Equity Lawsuit

Plaintiff,

1

-againstNorman St George
Defendant

DONNELLY J.

Preliminary Statement

BLOOM, MJ.

This civil action involves the willful and intentional violations under color of state and federal law
to unlawfully deprive Plaintiffs of her First, Fourth, Fifth, Sixth, Seventh, Eighth, Ninth, Tenth, Thirteenth
and Fourteenth ofthe United States Constitution. And, involves Article III Section 2, Clause I, ofthe
U.S. Constitution which states that Judicial Power shall extend to all cases, in Law and Equity, arising
under this Constitution, the Laws of the United States, treaties made, or which shall be under their
Authority;

Article VI, Supreme Law ofthe Land; the Constitution and laws of the United States,

which shall be made in pursuance thereof. All treaties made, under the Authority of the United States
shall be, bound by that. This action is brought in accordance with Title 42 U.S.C. Sections 1983 and 1985 of
the Civil Rights Act. This action is brought in accordance with Title U.S.C. Sections 1983, 1985, and 1988 of the
Civil Rights Act specifically the provision seeking equitable relief and declaratory judgment

Jurisdiction of Court
This civil action arises under Article III Section 2, Clause 1, of the U.S. Constitution which that Judicial
Power shall extend to all cases, in Law and Equity, arising under this Constitution, the Laws of the United
States, treaties made, or which shall be, under their Authority; .... Article VI, Supreme Law of the
Land; the Constitution and laws of the United States, which shall be made in pursuance thereof. All
treaties made, under the Authority of the United States shall be Supreme Law of the Land and the Judges
in every state shall be bound by that. This action is brought in accordance with Title U.S.C. Sections 1331
and 1342 and Title 42 U.S.C. Sections 1983,2985, and 1988 ofthe CivU Rights Act.
1

case l:l9aa%K£MO#«

of 8 Pase,D #: 2

1st Amendment [1791] Citizens of United States have the right to petition the government for a redress of
Grievances.
4th Amendment [1791] The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants shall issue, but Upon
probable cause, support by Oath or affirmation, and describing the place to be searched, and the persons or
things to be seized.
5th Amendment [1791] .... nor deprived of life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just compensation.
6th Amendment [1791] In all criminal prosecutions, the accused shall enjoy the right to speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation; to be informed of the
naturejmd causes of the accusation; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses his favor, and to have the Assistance of Counsel for his defense.
7th Amendment [1791] In Suits at Common law, where the value in controversy shall exceed twenty
Dollars, die right of trial by jury shall be preserved, and no feet tried by jury, shall be otherwise
re-examined in any Court of the United States, than according to the rules of the common law.
8th Amendment [1791] .... nor cruel and unusual punishments inflicted.
9th Amendment [1791] The enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people.
10th Amendment [1791] The power not delegated to the United States by the Constitution, nor prohibited
by it to the States, are reserved to the States respectively, or to the people.
2

Case l:19-cv-00094-AMO-LB Document 1 Filed 01/07/19 Page 3 of 8 PagelD #. 3
Itates, and subjected to
14th Amendment [1865] Section 1. . persons bom or naturalized in the Uni
the jurisdiction thereof, is citizens of the United States and of the State wherein they reside. No State
shall make nr enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal protection of the laws.
Parries To This Civil Action
1 . Plaintiff, Nehemiah Rolle, Jr. a citizen of the United States located at 909 3"* Avenue 6096, New York,
New York 10150.
2. Defendant Norman St George personally, individually, and as a New York State official. With respect to
transactions and occurrences that form the basis of this complaint against Norman St. George in Nassau County
located at 99 Main Street, Hempstead, New York 11550 and who was acting under color of State law and in violation
of Federal law and the United States Constitution and Title 42 Section 1983,1985, and 1988 ofthe Civil Rights Act.
Statement of Claims
3. The Plaintiff Nehemiah Rolle brings this complaint against the Defendant the who is a state official in

Nassau County as a lawsuit of equity to redress deprivations under color of state law for denying them their rights,
privileges, or immunities secured by the United States Constitution and to interpose the federal courts
between the states and the people, as guardians of the people’s federal rights, and to protect the people from
unconstitutional actions under color of state law, whether that action is executive, legislative, or judicial.
4. The Plaintiff brings this federal complaint and claim against the Defendant Norman St George because
he beginning on November 29,2018 willfully and intentionally and criminally began in retaliation depriving and
violating Plaintiff Nehemiah Rolle, Jr’s Constitutional Rights to pursuant to the 1st, 5th & 14th Amendment to the
United States Constitution which prohibits the Defendant or the state or a state official from engaging in acts of
See. Mitehum v, Foster 92 S.Ct 2151,2161
3

Case 119-CV-00094-AMD-LB Document 1 Filed 01/07/19 Page 4 of

depriving Plaintiff the right to peti'

#• 4

he Courts to redress grievances and fiP 'ouons to dismiss without due process

of law; and prohibits the Defendant from fraudulently acting to deprive the Plaintiff equal protection of the laws; and
prohibits the Defendant from fraudulently acting to deprived Plaintiff access to the court; and prohibits the Defendant
from and engaging in willfully acts of slander and defamation and peijurious utterances and actions against the
Plaintiff that were false and
was done by the Defendant to destroy Plaintiff’s reputation and to injury the Plaintiff as NAACP member who made a
valid complaints that he witnessed to the Defendant Norman St George of mis-use and abuse of power and criminal
obstruction ofjustice and peijury and violations of the United States Constitution and the Civil Rights Act Title 42
USC Section 1983 and 1985 under color of state against the Defendant’s friend and associate Joseph Girardi a state
official who engaged in the aforementioned acts against another NAACP member named Deborah Joseph in state
proceedings; so the Defendant unlawfully and unjustly set out for revenge against the Plaintiff.
5. The Plaintiff brings the Federal Complaint and next claim against the Defendant Norman St. George a
state official for his inability and failure to exercise his duty and oath of office and afford the Plaintiff Nehemiah
Rolle, Jr. a Black American citizen bom in the United States his full United States Constitutional rights to full due
process pursuant to the Fifth Amendment to United States Constitution and Defendant Norman St. George inability
and failure to exercise his duty and oath of office and afford the PlaintiffNehemiah Rolle, Jr. a Black American
citizen bom in the United States and afford me my United States Constitutional right to equal protection to all the laws
of United States and, afford me my US Constitutional right to rights and privileges or immunities that immune him
from prosecution of any unlawful and unjust state law or state action.
6. The Plaintiff brings this Federal Complaint and the next claim against the Defendant Norman St. George
(a mixed Black) state official for violating me, the Plaintiff’s 1st, 4th, 5th, and 14,k Amendments to the United States
Constitution and Title 42 USC Section 1983 and 1985 and 1988 and for Federal obstruction ofjustice and unlawfully
and unjustly and fraudulently refusing under color of state law to observe and apply facts and evidence brought
forward in motions by the PlaintiffNehemiah Rolle, Jr. a Black American citizen bom in the United State to this lower

4

aate

£W^aB!aS^BWt»n.

information accusations (traffic tickets) that were unsupported by notarized sworn affidavits and depositions by a the
white Nassau County Police officer named Fisher who refuses to cite his full name on the alleged simplified traffic
information offenses and other Court papers filed against the Alleged Accused or Respondent Nehemiah Rolle a Black
American citizen born in the United State as required by the New York State Appellate Courts and the New York
State Court of Appeals (highest Court in New York State).
7. The Plaintiff brings this Federal Complaint and the next claim against the Defendant Norman St George
(a mixed Black) state official for Federal criminal fraud and obstruction ofjustice for violating and depriving
Plaintiffs of his lsl, 4th ,5th, and 14th Amendments to the United States Constitution and Title 42 USC Section 1983 and
1985 and 1988 under color of state law when Defendant not will take legal judicial notice nor recognize the Plaintiff
Nehemiah Rolle, Jr. a Black American citizen bom in the United States legal documentary evidence and facts
and proofs in a state proceeding during motion practice and dismiss the false traffic tickets and again thereby violating
and depriving Plaintiff’s of his 1st, 4m,5 , and 14th Amendments to the United States Constitution and Title 42 USC
Section 1983 and 1985 and 1988 under color of state law; and the Defendant also continues to obstruct justice and
allows the white police Nassau County Police Officer not to disclose his full name in state papers and on the false
traffic tickets in violation of the Plaintiff’s United States Constitutional Rights pursuant to 1st, 4th ,5th, and 141h
Amendments to the United States Constitution and Title 42 USC Section 1983 and 1985 and 1988 under color of state
law.
Relief Requested bv Plaintiff
Wherefore, I the Plaintiff Nehemiah Rolle, Jr. seeks first equitable relief and a declaratory judgment saying
that Nassau County legal matter be dismissed against the Plaintiff due the Defendant Norman St. George multiple acts
of criminal fraud and Federal obstruction ofjustice under color of state law and for intentionally beginning acts of
retaliation by depriving and violating PlaintifFNehemiah Rolle, Jr’s Constitutional Rights to pursuant to the 1,5 &
14th Amendment to the United States Constitution which prohibits the Defendant or the state or a state official from
engaging in acts of depriving Plaintiff the right to petition the Courts to redress grievances and file motions to dismiss
5

without due proceH of^a^^^pr^^its

BefenSfflit^nrilludulen^y^^

the^amtif^equal

protection of the laws; and prohibits the Defendant from fraudulently acting to deprived Plaintiff access to the court;
and prohibits the Defendant from and engaging in willfully acts of slander and defamation and perjurious utterances
and actions against the Plaintiff that were false and was done by the Defendant to destroy Plaintiffs reputation and to
injury the Plaintiff as NAACP member who made a valid complaints that he witnessed to the Defendant Norman St.
George of mis-use and abuse of power and criminal obstruction ofjustice and peijury and violations of the United
States Constitution and the Civil Rights Act Title 42 USC Section 1983 and 1985 under color of state against the
Defendant’s friend and associate Joseph Girardi a state official who engaged in the aforementioned acts against
another NAACP member named Deborah Joseph in state proceedings; so the Defendant unlawfully and unjustly set
out for revenge against the Plaintiff and for Defendant Norman St George a state official for his inability and Mure
to exercise his duty and oath of office and afford the Plaintiff Nehemiah Rolle, Jr. a Black American citizen bom in
the United States his full United States Constitutional rights to full due process pursuant to the Fifth Amendment to
United States Constitution and Defendant Norman St George inability and failure to exercise his duty and oath of
office and afford the Plaintiff Nehemiah Rolle, Jr. a Black American citizen bom in the United States and afford me
my United States Constitutional right to equal protection to all the laws of United States and, afford me my US
Constitutional right to rights and privileges or immunities that immune him from prosecution of any unlawful and
unjust state law or state action; and saving that for Federal obstruction ofjustice and unlawfully and unjustly and
fraudulently refusing under color of state law to observe and apply facts and evidence brought forward in motions by
the PlaintiffNehemiah Rolle, Jr. a Black American citizen bom in the United State to this lower state proceeding
requiring the dismissal of these false and unlawful and unjust and fraudulent alleged simplified traffic
information accusations (traffic tickets) that were unsupported by notarized sworn affidavits and depositions by a the
white Nassau County Police officer named Fisher who refuses to cite his full name on the alleged simplified traffic
information offenses and other Court papers filed against the Alleged Accused or Respondent Nehemiah Rolle a Black
American citizen bom in the United State as required by the New York State Appellate Courts and the New York
State Court of Appeals (highest Court in New York State); and saving that Defendant obstructed justice by unlawfully

6

and unjust

forward in motions by the PlaintiffNehemiah Rolle, Jr. a Black American citizen bom in the United State to tins lower
state proceeding requiring the dismissal of these false and unlawful and unjust and fraudulent alleged simplified traffic^
information accusations (traffic tickets) that were unsupported by notarized sworn affidavits and depositions by a the
white Nassau County Police officer named Fisher who refuses to cite his full name on the alleged simplified traffic
information offenses and other Court papers filed against the Alleged Accused or Respondent Nehemiah Rolle a Black
American citizen bom in the United State as required by the New York State Appellate Courts and the New York
State Court of Appeals (highest Court in New York State); and saying that the Defendant engaged in Federal criminal
fraud and obstruction ofjustice for violating and depriving Plaintiffs of his 1st, 4th ,5 , and 14 Amendments to the
United States Constitution and Title 42 USC Section 1983 and 1985 and 1988 under color of state law when
Defendant not will take legal judicial notice nor recognize the Plaintiff Nehemiah Rolle, Jr. a Black American citizen
bom in the United States legal documentary evidence and facts and proofs in a state proceeding during motion practice
and dismiss the false traffic tickets and again thereby violating and depriving Plaintiffs of his 1,4 ,5 , and 14
Amendments to the United States Constitution and Title 42 USC Section 1983 and 1985 and 1988 under color of state
law; and the Defendant also continues to obstruct justice and allows the ■white police Nassau County Police Officer not
to disclose his full name in state papers and on the false traffic tickets in violation of the Plaintiffs United States
Constitutional Rights pursuant to 1st, 4th,5th, and 14th Amendments to the United States Constitution and Title 42 USC
Section 1983 and 1985 and 1988 under color of state law; further Plaintiff is seeking a declaratory judgment saying
that the Defendant Norman St George be precluded from any and all involvement in the Nassau County District Court
traffic ticket matter against the Plaintiff due to the Defendant Norman St George multiple acts of
unlawful and unjust and criminal fraud and thru lies and deception and mis-use and abuse of power and thru multiple
acts of Federal obstruction ofjustice that deprived and violated the United States Constitution and New York State
Constitution and all the laws of the United States and for the deprivations of the Plaintiff s rights pursuant to
Title 42 U.S.C Chapter 21 Sections 1983,1985, and 1988 ofthe Civil Rights Act and the United States Constitution
along with deprivations of Nehemiah Rolle, Jr. Title 42 U.S.C Chapter 21 Sections 1983,1985, and 1988 ofthe Civil

7

Case ^W-cv-OOOS^AMO^Doc^nU^File^/OTa^ P^^^VlTNA
Rights Act and the United States C

where the Plaintiff will present numerous documentary factual material evidence and material witnesses along with
who will testify against the Defendant at his Federal trial. Further. if declaratoty_relief has.nQt .been_ayaiIableJo_the—
Plaintiff against the Defendant And, if this matter continues Plaintiff reserves the right to seek injunctive relief. The
Plaintiff will seek after a jury trial and conviction of the Defendant and that the Declaratory Judgment will be used to
impeach and remove the Defendant from his position as New York State official for violating his oath of office and
failing to uphold the United States Constitution and the New York State Constitution and all the law of the
United States and for deprivations of the Plaintiff9 s rights pursuant Title 42 U.S.C Chapter 21 Sections 1983,1985,
and 1988 of the Civil Rights Act. Plaintiff will also reserve the right to used the declaratory judgment to seek Federal
criminal prosecution of certain individuals for obstruction ofjustice and Federal Slander and Defamation against the
Plaintiff. In the event Defendant does not answer this Federal complaint within 21 days after being served, a default
judgment must be granted to the Plaintiff and the Defendant be adjudged as if he, the Defendant was convicted after a
jury trial.
, 201$. I declare under penalty of perjury that

day of

Signed this

the foregoing is true and correct
Respectfully submitted,

Sworn to before me
dav of

n

Nfrtary Public

Plaintiff Nehemiah itolle’Jr.feting as his own lawyer
909 3rd Avenue 6096
New York, New York 10150

,2019
4

TEO R ORlGGiN
Notary Public - State of New York
NO. 01DR63639fi?
Qualified in Nassau County
My Commission Expires Sop S. 2021

8

-1

I."

JS44

Case l:19-cv-00094-AMD-LB Document 1-1 Filed 01/07/19 Page l^pf 2^j^elD # : 9
(Rev. 11/15)
CIVIL COVER SHEET
/

^jjsafsasauiv.

-IS 44 civil cover sheet and the infoimation contained herein neither replace nor supplement the filing and service of pleadings or other papers as requited by law, except as

provided by local rules ofcourt This form, approved by the Judicial Conference ofthe United States in September 1974, is required for foe use ofthe Clerk ofCourt for the
purpose ofmitiating the civil docket sheet (SEE INSTRUCTIONS ON NEXTPAGE OF THIS FORM.)
JAM AN j[MQ
X

I. (a) PLAINTIFFS
Nehemiah Rolle. Jr.

DEFENDANTS
Norman-Sfc-Gearge

909 3rd Avenue 6096
New York, New York 10150
(b) County of Residence of First Listed Plaintiff

LONG ISLAND OFFICE
99 Main Street
Hempstead, New York 11550
County of Residence of First Listed Defendant Nassau County

New York County

(EXCEPTIN US. PLAINTIFF CASES)
NOTE;

(IN U.S. PLAINTIFF CASES ONLY)
IN LAND CONDEMNATION CASES. USE THE LOCATION OF
THETRA
LAND INV
ras

Attorneys (stKr

(C) Attorneys (Firm Name, Address, and Telephone Number)

DONNELLY, J.
U« BASIS OF JURISOICTTTONjP/ffCPart “X"tnOne BaxOnty)
D i

US. Covennnent
Plaintiff

DEL CITIZENSHIP OF PRINCIPAL PARTIES/P/ace an
in One Boxfor Plaintiff
(For Diversity Cases Only)
and One BoxJor Defendant)
PTF
DEF
PTF
DEF
Citizen ofTins State
& I Incorporated
O 4

& 3 Federal Question
(US. Government Not a Party)

□ 2 U.S. Covemmect
Defendant

G 4 Diversity
(Indicate Citizenship of Parties in Item III)

NATURE OF SUIT (Place an “X” in One Box Only)
-- CONTRACT-;
-"i-.-V:- -V<-. :: ^TORTB.V
O
O
O
O
O
O
O

O
O
O
O
O

110 Insurance
120 Marine
130 Miller Act
140 Negotiable Instrument
ISO Recovery of Overpayment
& Enforcement of Judgment
151 Medicare Act
152 Recovery of Defaulted
Student Loans
(Excludes Veterans)
153 Recovery ofOverpayment
of Veteran’s Benefits
160 Stockholders’ Suits
190 Other Contract
195 Contract Product Liability
196 Franchise

REALPROPERTY- ♦
O 210 Land Condemnation
□ 220 Foreclosure
O 230 Rent Lease & Ejectment
O 240 Torts to Land
O 245 Tort Product Liability
O 290 All Other Real Property

[

PERSONAL INJURY
O 310 Airplane
O 315 Airplane Product
Liability
O 320 Assault, Libel &
Slander
O 330 Federal Employers*
Liability
O 340 Marine
O 345 Marine Product
Liability
O 350 Motor Vehicle
O 355 Motor Vehicle
Product Liability
0 360 Other Personal
Injuiy
O 362 Personal Injuiy Medical Malpractice
• ‘.- CIVIL-RIGHTS-- S - 7
&440 Other Civil Rights
O 441 Voting
O 442 Employment
O 443 Housing/
Accommodations
O 445 Amcr. w/Disabi!ittes Employment
O 446 Anter. w/Disabflities Other
O 448 Education

V* ORIG IN (Place an "X” in One Box Only)
□ 2 Removed from
State Court

& 1 Original
Proceeding

□ 3

Citizen ofAnother State

0 2

0 2

Incorporated and Principal Place
ofBusiness In Another State

OS

OS

Citizen or Subject of a
Foreign Country

0 3

0 3

Foreign Nation

0 6

0 6

. FORFEITURE/PENALTY.:

PERSONAL INJURY
O 365 Personal Injury Product Liability
O 367 Health Care/
Pharmaceutical
Personal Injuiy
Product Liability
O 368 Asbestos Personal
Injury Product
Liability
PERSONAL PROPERTY
O 370 Other Fraud
O 371 Truth in Lending
O 380 Other Personal
Property Damage
O 385 Property Damage
Product Liability

O 625 Drug Related Seizure
ofProperty 21 USC88I
O 690 Other

BANKRUPTCY.

OTHKR^PATtfrES^^ I

0 422 Appeal 28 USC158
O 423 Withdrawal
28 USC 157

O 375 False Claims Act
O 376QiriTam(3I USC
3729(a))
O 400 State Reapponionmern
^PROPERTY RIGHTS^ * O 410 Antimist
O 820 Copyrights
O 430 Banks and Banking
O 830 Patent
O 450 Commerce
O 840 Trademark
O 460 Deportation
O 470 Racketeer Influenced sad
•c fSOGrACRBrnuriiVi;
Corrupt Organizations
O 710 Fair Lsbor Standards
0 861 HlA(I395ff)
O 480 Consumer Credit
Act
O 862 Black Lung (923)
O 490 Cable/Sat TV
O 720 Labor/Management
O 863 DIWC/DIWW (405(g)) O 850 Securities/Commodities/
Relations
O 864 SSID Tide XVI
O 740 Railway Labor Act
O 865 RSI (405(g))
O 890 Other Statutory Actions
O 751 Family and Medical
O 891 Agricultural Acts
Leave Act
O 893 Environmental Matters
O 790 Other Labor Litigation
O 895 Freedom of Information
mPRISQNBRPETrnONS^ O 791 Employee Retirement
. X-PEDERAlt TA3ESDITS: ;;
Act
Habeas Corpus:
Income Security Act
0 870 Taxes (OS. Plaintiff
O 896 Arbitration
O 463 Alien Detainee
or Defendant)
O 899 Administrative Procedure
O 510 Morions to Vacate
O 871 IRS—Third Party
Act/Review or Appeal of
Sentence
26 USC 7609
Agency Decision
O 530 Geneial
O 950 Constitutionality of
O 535 Death Penalty
- •, ’».^IMMIGRATIQN^^tT,
State Statutes
Other:
O 462 Naturalization Application
□ 540 Mandamus & Other O 465 Other Immigration
O 550 Civil Rights
Actions
O 555 Prison Condition
O 560 Civil Detainee *
Conditions of
Confinement

Remanded from
Appellate Court

0 4 Reinstated or

Reopened •

0 5 Transferred from

Another District
(specify)

0 6 Multidistrict
Litigation

VI. CAUSE OF ACTION Brief description of cause:
Defendant unlawfully and unjustly & fraudulently depriving & denying Plaintiffs Constitutional Rights-Equity Lawsui
VII. REQUESTED IN
□ CHECK IF THIS IS A CLASS ACTION
UNDER RULE 23, F.R.CV.P.
COMPLAINT;
VIII. RELATED CASE(S)

DEMANDS

CHECK YES only ifdemanded in complaint:
JURY DEMAND:
& Yes GNo

(See Imtructions):

IF ANY

JUDGE

DATE

DOCKET NUMBER

SIGNATURE OF ATTORNEY OF RECORD

FOR OFFICE USE ONLY
RECEIPTS

7^

AMOUNT

LfeQ.QQ

APPLYING IFF

JUDGE

MAG. JUDGE

Affidavit of Douglas Mayers
New York State)
)SS:
Nassau County)

I, Douglas Mayers of78 Woodside Avenue Freeport, NY 11520 make this affidavit and certify and affirm
that the following is true and correct:
I, Douglas Mayers, was present in Room 370 of the Nassau County District Court, located at 99 Main
Street, Hempstead, NY 11550 of Nassau County District Court, Judge Joseph Girardi presiding during a
trial regarding Mrs. Deborah Joseph. I attended the hearing and trial of Mrs. Deborah Joseph on
Wednesday, March 18th, 2015 and again on or about Wednesday, March 25th, 2015. I observed the
honorabfe Judge Joseph Girardi was questioning a police officer from Garden City, NY. At times when
Ms. Joseph's lawyer was questioning the Garden City Police officer who was on the stand in reference to
being called to a bank where Mrs. Joseph was asked to come with information about a check she
received in the amount of $23,500. At a point within the attorney's questioning the judge asked the
Garden City officer if Mrs. Joseph spoke with an accent. The police officer said yes, she spoke Creole. I
think this was wrong on the part of the judge, which, l thought was unusual because Mrs. Joseph's
attorney continued to question the officer on why Mrs. Joseph was arrested. The officer told the
attorney he was called by someone from the bank in reference to this check.
On my second visit to the court on the 25th or I was sitting in the courtroom and I do not think the judge
let Mrs. Joseph's lawyer represent her as he should. He kept objecting to the attorney in whichever way
that he could I am not speaking as an attorney but I understand that a defendant's attorney should be
able to defend that defendant without interruption from the judge when witnesses were asked
questions, who were on the stand by the prosecution.
Again, later in the afternoon when the judge began to charge the Jury with instructions on the law he
was forcefully instructing the jury jn every way that they should come back with a guilty verdict, which I
found was rather unusual. And, he did not give the defendant attorney the time necessary to represent
her in the way that she should. I my opinion, I Douglas Mayers do not think Mrs. Joseph had a fair and
impartial trial under this judge.

Respectfully submitted,

y Douglas Mayers
78 Woodside Avenue
Freeport, NY 11520
Sworn before me this

y^01J0827S441

/

)

t

3

&

dav of

.2015

Notary Public
TARMAC. JOSEPH
Noiny PtibHo, 8tata of NswMxfc
. ’ No. 01JO8279441

Qualified fn Queens County ,7

Commission Expires Apr# 8* 2uLL

a

Affidavit of Dr. Joseph Volker

New York State)
)ss.:
Nassau County )
1). I, Dr. Joseph Volker of 133 Cedarhurst Ave Point Lookout NY 11569 make this
affidavit and certify and affirm that the following is true and correct:
I, Dr. Joseph Volker, was present in Room 370 ofthe Nassau County District Court
located at 99 Main Street, Hempstead, New York 11550 of Nassau County District Court,
Judge Joseph Girardi presiding on or about March 20,2015 during a trial regarding
defendant Deborah Joseph (a Grenadian —American). At the time I was sitting in the same
row as Nehemiah Rolle (an African American).
■v.

Throughout the trial of Deborah Joseph, Judge Joseph Girardi demonstrated a negative *
adverse pre- disposition toward Mrs. Joseph from the beginning. I believe consciously or
unconsciously Judge Gerardi conveyed his underlying attitude directly & indirectly as
follows:

&
%

1. Immediately after the jury selection Judge Joseph Girardi stated that he had been
informed that Nehemiah Rolle was talking to me and acting in such a way as to
influence the jury, when in fact we were not Judge Joseph Girardi ordered
Nehemiah Rolle & I to sit two rows back from where we were sitting. I removed
myself to a seat on other side of the courtroom to avoid any further accusations.
2. On or about March 25th I was present in Judge Girardi’s Courtroom when he asked
Mrs. Joseph, the defendant whether or not she wanted to testify on her own behalf. I
observed her attorney speaking to her & simultaneously 1 heard Nehemiah Rolle
encourage Mrs. Joseph to do so. With that Judge Girardi directed that the Officer
remove Mr. Rolle from the Courtroom.
3. On or about March 26th the Jury during its deliberations requested a copy of the Law
as it pertains to the charges against Mrs. Joseph. Judge Gerardi denied their request
for a copy, reconvened them in die Courtroom & told them he decided that he would
explain to them the requirements which they were to consider for possession of a
forged instrument.

1

\

4. Throughout the trial Judge Gerardi repeatedly overruled Mr. Fineman, denied his
requests for redactions of hearsay in witnesses’ testimony, assisted and even argued
tiie prosecutors case on more than one occasion and repeatedly interrupted Mr.
Fineman’s remarks before the jury and during his summation.
5. On or about March 26th I was present and heard arguments regarding bail &
sentencing among the District Attorney’s lawyers, Mrs. Joseph’s lawyer, Mr.
__ Fineman, and Judge Gerardi. Die District Attorney requested bail be set at $2000.00
to which Judge Gerardi responded there would be no bail as this was a serious crime.

» i

6. After refusing the District Attorney’s request for bail Judge Gerardi further said that
Mrs. Joseph did not take advantage of his (Judge Gerardi’s) offer at the beginning of
the trial, when he told her that he would guarantee that everything would be
expunged if she just pleaded guilty to a misdemeanor. When Mr. Fineman indicated that she did not plead guilty because she maintains that she is not guilty, Judge
Gerardi stated that he gave her ample opportunity to testify on her own behalf. Mr.
Fineman said that he, Mr. Fineman, told Mrs. Joseph not to testify. At this point
Judge Gerardi said she was found guilty, it was over and ordered Mrs. Joseph
handcuffed & removed from the Courtroom.
£

7. After Mrs. Joseph was removed from the Court, the arguments continued with Judge
Gerardi insisting that Mrs. Joseph was a risk in that she knew any further appearance
would be punitive. Mr. Fineman pointed out that that the Prosecution was willing to
set bail set at $2000.00. Reiterating Mrs. Joseph’s failure to enter a misdemeanor or
to testify on her own behalf, Judge Gerardi said it was his decision & he was
inclined to give Mis. Joseph a sentence of 90 days to 6 months imprisonment.
8. Mr. Fineman pointed out that Mrs. Joseph was a citizen & never had a complaint or
charge of misconduct against her. Judge Gerardi stated that he would give Mr.
Fineman 30 days to see if Mrs. Joseph would come forward, show remorse & plead
guilty to a misdemeanor. Judge Gerardi insisted Mrs. Joseph remain in custody until
the sentencing hearing. Mr. Fineman stated in that case he would move quickly to
return to the Court.

Case 19-5% Document 142, 12/30/2020, 3003§83, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
30th day of December, two thousand twenty.

Nehemiah Rolle, Jr.,
Plaintiff - Appellant,
v.

ORDER
Docket No: 19-584

Norman St. George,
Defendant - Appellee.

Appellant, Nehemiah Rolle, Jr., filed a petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Case 19-584.vDocument 143, 01/06/2021, 30073J57. Pagel of 5

MANDATE
T9^)CT7:V . - -Rolle v. St. George

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1,2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
2nd day of November, two thousand twenty.
PRESENT:

AMALYA L. KEARSE,
GERARD E. LYNCH,
WILLIAM J. NARDINI,
Circuit Judges.

NEHEMLAH ROLLE, JR.,
Plaintiff-Appellant,
No. 19-584

v.
NORMAN ST. GEORGE,
Defendant-Appellee.

FOR PLAINTIFF-APPELLANT:

Nehemiah Rolle, Jr., pro se, New York,
NY.

FOR DEFENDANT-APPELLEE:

David Lawrence III, Assistant Solicitor
General (Barbara D. Underwood, Solicitor
General, and Anisha S. Dasgupta, Deputy
Solicitor General, on the brief), for Letitia
James, Attorney General, State of New
York, New York, NY.

MANDATE ISSUED ON 01/06/2021

Case 19-58-4 Document 143, 01/06/2021, 3007337- Page2 of 5
i

/

■

Appeal from a judgment of the United States District Court for the Eastern District of New
York (Ann M. Donnelly, J.\ Lois Bloom, M.J.).

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court entered on February 8, 2019, dismissing
appellant’s'complainfris AFFIRMED.
Appellant Nehemiah Rolle, Jr., proceeding pro se, sued Nassau County District
Administrative Judge Norman St. George for allegedly violating Rolle’s constitutional rights.
The district court sua sponte dismissed the complaint as frivolous and ordered Rolle to show cause
why the court should not impose a filing injunction. After the judgment was entered and Rolle
filed a notice of appeal, the district court granted Rolle five extensions of time to file a response to
the court’s order to show cause. The district court then imposed a filing injunction. We assume
the parties’ familiarity with the record.
A district court has inherent authority sua sponte to dismiss a complaint as frivolous, even
when the litigant is not proceeding in forma pauperis. Fitzgerald v. First E. Seventh St. Tenants
Corp., 221 F.3d 362, 363 (2d Cir. 2000). Although we have not yet decided whether we review
a district court’s exercise of this authority de novo or for abuse of discretion, we need not do so
here, where the district court’s decision “easily passes muster under the more rigorous de novo
review.” Id. at 364 n.2. An action is “frivolous” when: “(1) the factual contentions are clearly

i

Rolle moves this Court for leave to file an untimely reply brief and appendix, and to strike
the appellee’s brief. The motion for leave to file is GRANTED, and the motion to strike is
DENIED.
2

Case 19-584. Document 143, 01/06/2021, 3007337.Page3 of 5
/

baseless, such as when allegations are the product of delusion or fantasy; or (2) the claim is based
on an indisputably meritless legal theory.” Livingston v. Adirondack Beverage Co., 141 F.3d 434,

437 (2d Cir. 1998) (internal quotation marks omitted). We afford a pro se litigant “special
solicitude” by interpreting his complaint “to raise the strongest claims that it suggests.” Hill v.
Curcione, 657 F.3d 116, 122 (2d Cir. 2011) (internal alterations and quotation marks omitted).
Although Rolle’s complaint principally alleged that Judge St. George violated Rolle’s
constitutional rights by failing to dismiss traffic tickets, Rolle’s appeal does not challenge the
district court’s dismissal of these claims. We therefore construe any objection to the district
court’s disposition of them as abandoned and decline to review them further. See LoSacco v. City
of Middletown, 71 F.3d 88, 92-93 (2d Cir. 1995) (finding that the pro se litigant abandoned an
issue by failing to raise it in his appellate brief).
Instead, Rolle alleges new facts and argues that the district court erred in dismissing a
different claim—that Rolle mailed Judge St. George a “letter of complaint” about the conduct of
one of the judge’s colleagues and, in response, Judge St. George called NAACP leaders and made
false statements intended to harm Rolle’s reputation. Although the complaint could be construed
to contain a hint of such a claim—alleging that Judge St. George “engag[ed] in willful[] acts of
slander and defamation and pequrious utterances and actions against [Rolle] that were false ... to
destroy [Rolle’s] reputation and to injur[e Rolle] as an NAACP member who made a valid
complaint[]”—these vague and conclusory allegations were included in the same sentence as
allegations that appeared to concern Judge St. George’s disposition of Rolle’s traffic tickets matter.
The district court read the complaint to assert claims arising only out of actions Judge St. George

3

Case 19-5B4. Document 143, 01/06/2021, 3007337- Page4 of 5
)

took in his judicial capacity in
the liberal construction owed to pro se complaints, that was not error. Nor did the district court
abuse its discretion in dismissing the complaint without granting leave to replead a First
Amendment retaliation claim that became evident only on appeal. See Anderson News, L.L. C. v.
Am. Media, Inc., 680 F.3d 162, 185-86 (2d Cir. 2012) (denial of leave to amend is reviewed for
abuse of discretion).
Rolle’s judicial bias claims against the district judge and magistrate judge, which are based
entirely on adverse decisions and the race and putative religion of each judge, are meritless. See
Chen v. Chen Qualified Settlement Fund, 552 F.3d 218, 227 (2d Cir. 2009) (adverse decisions,
without more, are not sufficient to establish judicial bias). We decline to consider Rolle’s
allegations, raised for the first time on appeal, that the district judge has “stolen” money from him,
that the magistrate judge has made “illegal” rulings in other actions, or that other judges in the
Eastern District of New York have violated his constitutional rights. See Harrison v. Republic of
Sudan, 838 F.3d 86, 96 (2d Cir. 2016); Greene v. United States, 13 F.3d 577, 586 (2d Cir. 1994)
(“[I]t is a well-established general rule that an appellate court will not consider an issue raised for
the first time on appeal.”). And contrary to Rolle’s argument, his consent was not required for a
magistrate judge to grant Judge St. George’s motion for an extension of time. See Fed. R. Civ. P.
6(b), 72; see also 28 U.S.C. § 636(b)(1)(A).
Finally, we lack jurisdiction to review Rolle’s challenge to the filing injunction. See Fed.
R. App. P. 3(c)(1)(B) (a notice of appeal must “designate the judgment, order, or part thereof being
appealed”); Gonzalez v. Thaler, 565 U.S. 134, 147 (2012) (“Rule 3’s dictates are jurisdictional in

4

Case 19-534. Document 143, 01/06/2021,3007337^Page5 of 5
)
f
i
/

nature.”

7"248“(i-992))):—Rolle-fi1ed--enly--ene-jR©tiGe-©f-

appeal, in March 2019, which specified that he appealed from the district court’s February 2019

order and judgment. Nothing in the notice of appeal indicates an intent to appeal from a future
ruling on a filing injunction, which the district court did not make until July 2019. Cf. Swatch
Group Mgmt. Servs. v. Bloomberg L.P., 756 F.3d 73, 93 (2d Cir. 2014) (holding that a notice of
appeal could not be “reasonably read... to contemplate review of an order that did not issue until
nearly two months afterwards”). And no subsequent notice of appeal was filed.
We have considered all of Rolle’s arguments and find them to be without merit.
Accordingly, we GRANT the motion to file an untimely reply brief and appendix, DENY the
motion to strike, and AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
Lf SECOND us

. fj

eo

A True Copy
irk
Catherine O'Hagan Wj
Untied States Coi j£|5fl^lpK%VSecond Circuit
Lf SECOND Yi\
t ^

1

UJC

1 » v

Mi
5

r.

